U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    National Institute of
               Standards and Technology
                                     and
       National Oceanic and Atmospheric
                          Administration


        NIST and NOAA Monitor
    Their Recovery Act Programs,
 but Performance Metrics Need to
              Measure Outcomes

                       Final Report No. ARR-19881
                                      May 21, 2010




               For Public Release


                      Office of Audit and Evaluation
                                             c«TOF



                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington. D.C. 20230
May 21, 2010


MEMORANDUM FOR:	             Dr. Patrick D. Gallagher. Director
                             National Institute of Standards and Technology

                             Dr. Jane Lubchenco. Administrator
                             National Oceanic and Atmospheric Administration




FROM:	                       Ann C. Filers     \A^
                             Sr. Advisor and Project Lead, OIG Recovery Act Task Force


SUBJECT:	                    Programs ' Progress Monitored to Mitigate Risk, but Metrics Need
                             to Measure Outcomes, Final Report No. ARR-19881


We are providing you with our final report on NIST"s and NOAA's implementation of American
Recovery and Reinvestment Act of 2009 performance measurement requirements.

We found that both NOAA and NIST have established mechanisms to monitor the progress of
Recovery Act programs to more actively manage risk. The Recovery Act's emphasis on
accountability and performance has resulted in improved management capabilities and systems,
especially with respect to nonfmancial risk management. However, while the bureaus created or
improved existing systems to keep track of indicators of progress—e.g.. dollars spent, milestones
met, jobs created—they had not developed measures of substantive outcomes in order to assess
specific program goals or the broader public benefits of significant programs funded by the
Recovery Act. We discussed our findings with NOAA's chief financial officer (CFO) on
February 22, 2010, and with NIST'S deputy CFO and other NIST officials on February 25; we
then provided a draft report to the bureaus on April 16.

NOAA's April 22 response to our draft report says that NOAA agrees with the report and has
already begun to modify its Recovery Act performance metrics to address the report's
recommendation. NIST's May 14 response reemphasized the challenges we discussed in the
report regarding measuring core science programs. However, NIST agreed that its performance
metrics for the Scientific and Technical Research Services equipment program should be
strengthened and that it would develop an appropriate set of intermediate measures. We
summarize both bureaus' responses in our report.

Within 60 days from the date of this memorandum, please provide us with an action plan that
responds to our recommendation. Please also accept our thanks to NOAA and NIST officials for
the courtesies shown to us during the inspection. If you have any questions, please contact me at
(202) 482-4328 or John Bunting at (202) 527-0635.
Attachment



cc: 	   David Robinson, Chief Financial Officer, NIST
        Stephen Kunze, Deputy Chief Financial Officer, NIST
        Rachel Kinney, Recovery Act and Audit Liaison, NIST
        Maureen Wylie, Chief Financial Officer, NOAA
        Mack Cato, Audit Liaison, NOAA
        Ronald Rhodes, Recovery Act Liaison, NOAA
        Lisa Casias, Deputy Chief Financial Officer/Director for Financial Management, Office
           of Financial Management
        Ellen Herbst, Senior Adviser for Recovery Implementation, Office of the Vice President



 

  




                                                 
 
                                  Report In Brief
                                              U.S. Department of Commerce Ofﬁce of Inspector General
                                                                   May 21, 2010



Why We Did this Review                 American Recovery and Reinvestment Act
The American Recovery and Rein-        NIST and NOAA Monitor Their Recovery Act Programs,
vestment Act of 2009 and the Of-
ﬁce of Management and Budget’s         but Performance Metrics Need to Measure Outcomes
(OMB) implementation guidance
require agencies to monitor the
                                       (ARR-19881)
progress of Recovery Act programs
to identify areas of, and address
concerns about, high risk or low
                                       What We Found
performance. OMB also requires
agencies to include accountability     In order to more actively manage risk, the National Institute of Standards and
objectives as part of the risk-mit-    Technology (NIST) and the National Oceanic and Atmospheric Administration
igation process and to develop
quantiﬁable performance measures       (NOAA) have established mechanisms to monitor the progress of Recovery
that address the use of Recovery       Act programs. The Recovery Act’s emphasis on accountability and perfor-
Act funds to meet the act’s goals.     mance has resulted in improved management capabilities and systems, espe-
We examined NIST’s $200 million        cially with respect to nonﬁnancial risk management. These improvements have
Scientiﬁc and Technical Research       the potential to extend past the Recovery Act into other programs.
Services (STRS) account and
NOAA’s $600 million Procure-           However, while the bureaus have created new systems or improved existing
ment, Acquisition, and Construc-       systems to keep track of indicators of progress—e.g., dollars spent, milestones
tion account to determine
whether (1) the bureaus are
                                       met, jobs created—they have not developed measures of substantive outcomes
monitoring the progress of certain     that assess speciﬁc program goals or the broader public beneﬁts of signiﬁcant
programs funded by the Recov-          programs funded by the Recovery Act.
ery Act; (2) NIST and NOAA
have mitigated risks or addressed
schedule- or cost-related concerns;
and (3) the bureaus’ performance
metrics comply with OMB require-
ments.                                 What We Recommended

Background                             NOAA and NIST should improve their performance metrics for the more
On February 17, 2009, the President    signiﬁcant Recovery Act programs, focusing on intermediate outcomes that
signed the Recovery Act into law.
The act requires an unprecedented      assess the programs’ beneﬁts. For example, performance metrics should track
degree of transparency and account-    whether an investment has improved the body of knowledge in a particular
ability from agencies that receive     ﬁeld, disseminated newly developed tools and models, supported a research or
funding, and sets forth speciﬁc
responsibilities for the agencies to   technological innovation, or made other advancements in science and technol-
manage funds and program opera-        ogy for the public’s beneﬁt.
tions. Five operating units in the
Department of Commerce, plus the       We issued a draft report on our ﬁndings in April 2010, and gave the bureaus
Ofﬁce of Inspector General (OIG),      the opportunity to respond. NOAA agreed with the report and has already
received Recovery Act funds.           begun to modify its Recovery Act performance metrics to address our recom-
OIG has been proactive in our          mendation. NIST’s response reemphasized the challenges we discussed in the
oversight of Commerce’s Recovery       report regarding measuring core science programs. However, NIST agreed
Act programs and activities, includ-   that some of its performance metrics for the STRS equipment program should
ing the bureaus’ implementation of
the act’s performance measurement      be strengthened, and that it would develop an appropriate set of intermediate
requirements.                          measures.
U.S. Department of Commerce                                                                     Final Report ARR-19881 

Office of Inspector General                                                                               May 21, 2010 

 
                                                               Introduction
The American Recovery and Reinvestment Act of 2009 and the Office of Management and
Budget’s (OMB) implementation guidance require agencies to monitor the progress of Recovery
Act programs to identify areas of, and address concerns about, high risk or low performance.
OMB also requires agencies to include accountability objectives as part of the risk-mitigation
process (see box) and to develop quantifiable performance measures that address the use of
Recovery Act funds to meet the act’s goals.

The U.S. Government Accountability Office (GAO) defines performance measurement as “the
ongoing monitoring and reporting of program accomplishments, particularly progress toward
pre-established goals . . . typically conducted by program or agency management.”1 Performance
measurement during a project involves the timely, cost-effective oversight and management of a
program’s schedule, as well as its milestone progress and possible risks to its completion.
Performance measurement often addresses the type or level of program activities conducted
                                                 (process), the direct products and services
    Recovery Act Accountability Objectives       delivered by a program (outputs), and the results
                                                 of those products and services (outcomes).
    •	 Funds are awarded and distributed in      Performance measurement also focuses on
       a prompt, fair, and reasonable            whether a program has achieved its objectives,
       manner.                                   often expressed as measurable performance
    •	 Projects funded under this act avoid      standards. An agency’s inattention to a program’s
       unnecessary delays and cost               schedule, milestone progress, and risks inhibits its
       overruns.                                 ability to mitigate those risks and take timely
    •	 Program goals are achieved, including     action to support complicated or struggling
       specific program outcomes and             programs.
            improved results on broader 
            economic indicators.                                   Performance-based data demonstrate whether, in
      •	 The recipients and uses of all funds                      what ways, and why a program is working. Such
         are transparent to the public, and the                    data inform decisions by senior leadership,
         public benefits of these funds are                        program managers, the executive branch, and
         reported clearly, accurately, and in a                    Congress. Citizens also want to know that
         timely manner.                                            Recovery Act funds are awarded fairly and
      •	 Funds are used for authorized
                            promptly, along with the public benefits of these
         purposes and instances of fraud,
                         investments.
         waste, error, and abuse are
 
         mitigated.
                        The objectives of this review were to
                                            (1) determine whether NIST and NOAA have
   
  Source: OMB Memorandum M‐09‐15  
                                            taken action to monitor the progress of certain
                                            programs funded by the Recovery Act in order to
                                            mitigate risk; (2) determine whether NIST and
NOAA have mitigated risks or addressed schedule- or cost-related concerns; and (3) assess
whether the bureaus’ performance metrics comply with OMB requirements. The Office of
Inspector General (OIG) assessed NIST’s $220-million Scientific and Technical Research
                                                            
1
    U. S. Government Accountability Office, Performance Measurement and Evaluation—Definitions and
    Relationships (GAO-05-739SP, May 2005). 


                                                                    1
 
U.S. Department of Commerce                                               Final Report ARR-19881 

Office of Inspector General                                                         May 21, 2010 

 
Services (STRS) account and NOAA’s $600-million Procurement, Acquisition, and Construction
(PAC) account (see tables 1, 2, and 3 on pages 4, 7, and 8, respectively).
We conducted our work at NOAA in Silver Spring, Maryland, and at NIST in Gaithersburg,
Maryland. We met with NOAA and NIST program officials to discuss their development of
performance measures to meet the compliance requirements of the Recovery Act as described in
OMB Memorandum M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009. We reviewed policies, procedures, plans, and metrics for monitoring
and reporting the progress of certain Recovery Act programs. Also, we assessed relevant
management information systems that support Recovery Act performance measurement tracking
and reporting.

We performed this review from January through April 2010, under authority of the Inspector
General Act of 1978, as amended; Department Organization Order 10-13, dated August 31,
2006, as amended; and in accordance with the Quality Standards for Inspections (revised
January 2005) issued by the President’s Council on Integrity and Efficiency.

Summary of Findings

In order to more actively manage risk, NOAA and NIST have established mechanisms to
monitor the progress of Recovery Act programs. The Recovery Act’s emphasis on accountability
and performance has resulted in improved management capabilities and systems at these
bureaus, especially with respect to nonfinancial risk management. These improvements have the
potential to extend past the Recovery Act into other programs. However, while NOAA and NIST
have created new systems or improved existing systems to keep track of indicators of progress—
e.g., dollars spent, milestones met, jobs created—they have not developed measures of
substantive outcomes in order to assess whether specific program goals are being achieved or the
broader public benefits of significant programs funded by the Recovery Act.




                                               2
 
U.S. Department of Commerce                                                                  Final Report ARR-19881 

Office of Inspector General                                                                            May 21, 2010 

 
                                                         Findings and Recommendation
I.	        NIST and NOAA Have Established Mechanisms to Monitor the Progress of Programs
           to More Actively Manage Risk

For Recovery Act investments, OMB required each agency to include in its program‐specific
plans a delivery schedule with “milestones for major phases of the program’s activities (e.g., the
procurement phase, planning phase, project execution phase . . .) with planned delivery date(s).”2
As part of the risk management process, agencies are required to identify and mitigate the
potential risk of “unnecessary delays [in the delivery schedule] and cost overruns.”3 To assist in
determining how well agencies are dealing with this risk, they are required to track program
progress to determine whether funds are being obligated and expended in a timely manner.4

OMB provides guidance on the intersection between performance measurement and risk
management, stating that agencies must develop measures of “expected quantifiable outcomes
consistent with the intent and requirements of [the Recovery Act] and the risk management
requirements of Section 3 [of the OMB guidance].”5 Specifically, “[a]gencies should prepare risk
mitigation plans for those risks with the highest probability of occurrence and the greatest impact
[on program performance] if not mitigated [and] whenever possible; agencies should identify
quantifiable measures of performance, including ranges of acceptable and unacceptable
performance.”6

NIST and NOAA have taken positive steps to comply with these OMB requirements for their
Recovery Act investments, as detailed in table 1. For example, nonfinancial risk management has
become a key factor for both NIST and NOAA officials working on Recovery Act programs,
who indicated that increased attention to risk and more regular discussions about how to mitigate
a risk or resolve a problem have helped its bureaus set priorities and balance competing
concerns. Many officials also pointed to the consistent use of project management tools, either
the software used by NOAA or the database developed by NIST, which have informed and
complemented the risk assessment.




                                                            
2
  OMB Memorandum M‐09‐10 at 2.8(e); OMB Memorandum M‐09‐15 at 2.8(e).
3
  OMB Memorandum M‐09‐15 at 3.1. This risk must be monitored and reassessed by the agency throughout the
  period of availability of Recovery Act funds. OMB Memorandum M‐09‐15 at 3.11. In addition, Section 1512 of the
  Recovery Act requires recipients of funds to report to the agency on the completion status of projects and activities.
4
  See OMB Memorandum M‐09‐15 at 3.7.
5
  OMB Memorandum M‐09‐15 at 2.8(g). With respect to specific programs, the risk management requirements of
  Section 3 require agencies to identify, prioritize, and plan to mitigate programmatic risks. See OMB Memorandum
  M‐09‐15 at 3.9. 

6
  OMB Memorandum M-09-15 at 3.12.



                                                                      3
 
U.S. Department of Commerce                                                                 Final Report ARR-19881 

Office of Inspector General                                                                           May 21, 2010 

 
       Table 1: Mechanisms Established by NIST and NOAA to Monitor
                    Program Progress and Manage Risk
Source: OIG analysis based on bureau data

                                                 OMB and Recovery Act Requirements
                                  Track Progress Against Timely
                                   Expenditure of Recovery Act
                                             Funds
                                                      Identify and
                                                      Mitigate Risk
                                  Milestones for      of Delay and                       Quantifiable
Recovery Act                      Program             Cost              Risk             Performance     Other
Account          Mechanism        Activity            Overruns          Assessment       Measures        Benefits
NIST             • Recovery       Monthly action      Steering          • Contractor     • Counts jobs   Permanent
Scientific and     Act            plans address       Committee           develops         created       governance
Technical          Steering       funds’ obligation   meets as            and                            improvement:
                                                                                         • Tracks ac-
Research           Committee      status,             needed to           implements       quisition     • First time
Services                          milestones, risk    identify,           risk
                 • Program                                                                 milestones,     nonfinancial
(STRS)                            identification,     prioritize, and     manage-
                   Manage-                                                                 including       risk system-
Account: $220                     and risk            mitigate            ment
                   ment Office                                                             obligations     atically
million plus                      assessment          emerging risks,     system
                 • Database                                                                and expen-      measured
$30 million in                                        focusing on
                   for tracking                                         • All              dituresa        and
transfers                                             obligation
                   obligations                                            Recovery                         managed
                   and                                                    Act projects                   • Potential to
                   program                                                are                              extend past
                   progress                                               assessed                         Recovery
                                                                          for risk                         Act
                                                                          (low/
                                                                          medium/
                                                                          high)


NOAA             • Accounta-      Program             • Oversight       • Board has                      Close
Procurement,       bility         managers              Board meets       elevated                       tracking to be
Acquisition,       Oversight      present status        weekly to         higher risk                    extended to
and                Board          updates on            review            projects for                   all Recovery
Construction                      budget, risk          projects and      heightened                     Act projects
                 • Web- based
(PAC)                             management,           intervenes        scrutiny
                   executive
Account: $600                     project               as
                   dashboard                                            • Board has
million                           progress, and         necessary
                 • Tracking of                                            actively
                                  performance
                   selected       measurement to      • Action items      coordinated
                   higher risk                          follow each       with
                                  Oversight Board
                   programs                             meeting           external
                                                                          stake-
                                                      • Recovery
                                                                          holders and
                                                        Act program
                                                                          mitigated
                                                        manager
                                                                          cascading
                                                        monitors
                                                                          effects of
                                                        follow-up
                                                                          early delay
a
    As discussed in finding II, these performance measures do not generally support measurement of
    performance outcomes.

One positive consequence of the Recovery Act’s increased emphasis on accountability and
performance is that NIST’s and NOAA’s risk management capabilities (especially nonfinancial

                                                          4
 
U.S. Department of Commerce                                                              Final Report ARR-19881 

Office of Inspector General                                                                        May 21, 2010 

 
risk management) and project management capacities are improving. Before the Recovery Act,
NOAA managed construction and repair of facilities and vessels in accordance with existing
OMB requirements and current business practices in those industries, and used project delivery
schedules and risk assessments. Nonfinancial risk management, however, was less mature at
NOAA than its financial risk management capacity. While NIST’s financial risk management
expertise was reportedly well developed, several NIST officials indicated that its nonfinancial
risk management capabilities were less developed when the Recovery Act became law.
Likewise, NIST officials acknowledged that it traditionally did not have strong project
management experience, except for some recent improvements in the facilities construction and
repair areas.

NIST and NOAA officials offered a few positive examples of schedule-delay risks mitigated or
cost overruns averted due to early detection and subsequent follow-up. While the examples
provided have had minor impact so far, they do demonstrate that increased attention to schedule
and risk can help to avoid unnecessary delays and cost overruns. At this point, however, with
such a small percentage of Recovery Act funds expended from the NIST STRS and NOAA PAC
accounts, it may be too soon to see more tangible benefits of this enhanced oversight until more
funds are in the hands of contractors and grantees.

II.           Most NOAA PAC and NIST STRS Performance Metrics Do Not Measure Outcomes
As part of its Recovery Act performance plans, OMB requires each agency to measure “expected
quantifiable outcomes consistent with the intent and requirements of the legislation and risk
management. . .”7 OMB further states, “[E]ach outcome [must be] supported by a corresponding
quantifiable output(s)—agencies must specify the length of the period between measurements
(e.g., monthly, quarterly), measurement methodology, and how results will be made readily
assessable to the public.”8 Agencies are required to make this information publicly available. The
Recovery Act also requires recipients to report
on the creation and retention of jobs as well as      “Government operates more effectively  
the completion status of projects and
                                                         when it focuses on outcomes.…” 
activities.9
                                                                     OMB 2011 Budget Submission Guidance  
In April 2009, NIST and NOAA submitted                    “Performance and Management,”  
their Recovery Act plans to Congress, which                       January 8, 2010 
approved the plans—including the
performance measures—the following month.10 A key metric required by the Recovery Act is to
track job creation, which is considered an outcome measure. All NIST and NOAA Recovery Act
programs that were assessed in this review comply with this Recovery Act requirement.
                                                            
7
 OMB Memorandum M‐09‐15 at 2.8(g). 

8
 OMB Memorandum M‐09‐15 at 2.8(g). 

9
  Recovery Act, 1512(c)(3)(B)‐(D). This review does not address reporting or job creation or retention.
 
10
   Some Recovery Act performance measures are the same as the Government Performance and Results Act of 1993

  (GPRA) measures. In 2005, GAO wrote, “Seeking to promote improved federal management and the increased

  efficiency and effectiveness of federal programs, GPRA instituted a government-wide requirement for agencies to

  set goals and report annually on program performance,” and in enacting GPRA, “Congress expressed frustration 

  that executive branch and congressional decision making was often hampered by the lack of good information on

  the results of federal program efforts.” [See footnote 1.]
 


                                                               5
 
U.S. Department of Commerce                                                                       Final Report ARR-19881 

Office of Inspector General                                                                                 May 21, 2010 

 

Other than counting jobs, however, which is ultimately the main gauge of the Recovery Act’s
success, most of the NIST and NOAA programs reviewed do not have outcome-oriented
performance measures. Therefore, NIST and NOAA are not assessing whether program goals,
specific program outcomes, and improved results are achieved. In fact, many of the Recovery
Act measurements that were submitted by NIST and NOAA (and approved by OMB) are not
performance measures as envisioned in the Recovery Act guidance or as defined by GAO.
Rather, they are measures of the percentage of obligations (such as NIST STRS projects) or the
completion of a schedule’s milestones (such as NOAA facility and vessel construction and repair
projects). While both are crucial aspects to track in project and financial management, these
                                       metrics do not measure expected outcomes and do not
   Agencies will take actions          satisfy the Recovery Act’s intent to achieve program goals
   beyond standard practices to        by meeting these outcomes.
       adapt current performance 
       evaluation and review                                   NOAA uses measures of a program’s progress, such as a
       processes to include the ability                        schedule’s milestones that have been achieved, as its
       to report on program and                                performance measures in five out of eight PAC programs.
       economic outcomes.                                      For example, in the Facility Maintenance and Repair
                                                               program, the performance measures focus on specific
           —OMB Memorandum M‐09‐15,                            outputs, such as “Percentage of Planned Milestones Met,”
                   Grants, section 5.4  
                                                               and these metrics are monitored by the program manager
       Agencies will give heightened                           and NOAA’s Accountability Oversight Board as
       management attention to                                 performance measures. While measuring the progress of
       Recovery Act acquisition                                program schedule is vital, these milestone-related
       planning to achieve mitigation                          performance metrics do not measure expected quantifiable
       of schedule cost and                                    outcomes. Next Generation Radar (NEXRAD) is the
       performance risk, and define                            notable exception among the NOAA PAC programs, with
       contract requirements that                              seven outcome-oriented performance measures focused on
       deliver meaningful and                                  improving severe weather forecasting.11 For example,
       measurable outcomes.                                    NEXRAD measures the lead time and accuracy of severe
                                                               weather warnings for flash floods, tornados, and winter
           —OMB Memorandum M‐09‐15,                            storms.
                 Contracts, section 6.1 
                                        Tables 2 and 3 show several ways that NIST and NOAA
are tracking the progress of Recovery Act programs, monitoring Recovery Act spending and
project milestones, and counting jobs. The bureaus’ Recovery Act performance metrics,
however, are still not outcome oriented. For example, NOAA could develop a performance
metric for its vessel construction or repair activities that would measure its ability to more
effectively manage fisheries’ stocks. NIST could develop an outcome-oriented performance
metric that would measure the advances made in a particular scientific field due to NIST’s
purchases and use of highly technical scientific equipment. In such ways, NIST and NOAA
would develop performance measures that are aligned with the purposes of the investments, as
outlined in their spending plans.

                                                            
11
     These are the same as the program’s GPRA measures. As another example, NOAA’s GPRA Goal 3 measures
     climate outcomes, relevant to the Recovery Act’s High Performing Computers investment.


                                                                        6
 
U.S. Department of Commerce                                                       Final Report ARR-19881 

Office of Inspector General                                                                 May 21, 2010 

 
          Table 2: NIST Tracks Progress of Recovery Act Programs,
          but Most Performance Metrics Do Not Measure Outcomes

                                           Intended
                                           Purpose                          Measures   Spending
     NIST Scientific and Technical         (Recovery         Recovery       Jobs       Progress
     Research Services (STRS)              Act               Act Outcome    Created    and
     Account                               Spending          Measures       or         Milestones
     ($ millions)                          Plan)             Established?   Saved?     Tracked?
     Advanced Scientific            $119   Strengthen        No             Yes        Yes
     Equipment                             programs that
                                           enable long-
                                           term
                                           economic
                                           growth
                                           through
                                           innovation
     Measurement Science and          77   Advance           No             Yes        Yes
     Engineering Grants and                NIST
     Research Fellowships                  research
                                           through
                                           innovation;
                                           fellowship
                                           awardees will
                                           advance NIST
                                           research
     Other Remaining Programs,        54   Create tools      No             Yes        Yes
     including Research and IT             to help
     Infrastructure Contracts,             vendors test
     Standards for Health                  their health IT
     Information Technologya, and          products;
     SmartGrid Standardsb                  support
                                           development
                                           of
                                           interoperable
                                           Smart Grid;
                                           improve NIST
                                           IT
                                           infrastructure,
                                           etc.
     Total                          $250
     Source: OIG analysis of NIST data
      a
         Transfer from Department of Health and Human Services
     b
      Transfer from Department of Energy




                                                     7
 
U.S. Department of Commerce                                                           Final Report ARR-19881 

Office of Inspector General                                                                     May 21, 2010 

 

         Table 3: NOAA Tracks Progress of Recovery Act Programs,
          but Most Performance Metrics Do Not Measure Outcomes

                                          Intended                              Measures    Spending
                                          Purpose                Recovery       Jobs        Progress
NOAA Procurement, Acquisition             (Recovery Act          Act Outcome    Created     and
and Construction (PAC) Account            Spending               Measures       or          Milestones
($ millions)                              Plan)                  Established?   Saved?      Tracked?
Climate Computing and Modeling     $170   Improve the            No             Yes         Yes
                                          accuracy of
                                          seasonal climate
                                          and global
                                          climate change
                                          assessments
Pacific Regional Center             142   Improve                No             Yes         Yes
                                          operations and
                                          mission
                                          performance;
                                          operational
                                          savings; greater
                                          program
                                          collaboration
                                          within NOAA and
                                          externally
Southwest Fisheries Science         102   Enable NOAA            No             Yes         Yes
Center Laboratory Replacement             and partners to
                                          benefit from
                                          strategic and
                                          functional
                                          relationships with
                                          local research
                                          and educational
                                          organizations
Vessel Construction                  78   Improve the            No             Yes         Yes
                                          ability to more
                                          accurately
                                          manage fisheries
                                          stocks
Accelerate Satellite Development     74   Mitigate cost and      No             Yes         Yes
                                          schedule risk for
                                          existing satellite
                                          program
Other Remaining Facility             27   Support repairs to     No             Yes         Yes
Construction, Maintenance, and            specific facilities;
Repair                                    comply with
                                          building codes;
                                          support satellite
                                          missions
NEXRAD Radar Systems & Dual           7   Significant            Yes            Yes         Yes
Polarization                              improvement in
                                          precipitation
                                          estimation and
                                          distinction;
                                          general
                                          improvement in
                                          data quality

Total                              $600
Source: OIG analysis of NOAA data



                                                        8 
U.S. Department of Commerce                                                                    Final Report ARR-19881 

Office of Inspector General                                                                              May 21, 2010 

 

NIST and NOAA officials point out that in general, outcome-oriented performance measurement
is challenging, especially with research activities and projects such as office construction. A
senior NOAA official noted that the bureau
concentrates on monitoring construction                             Research Investments: 
schedules, stating that “[NOAA] focuses                            Outcomes and Efficiency 
appropriately on schedule and risk,” given the
short time frame in which to spend the                In 2008, the Environmental Protection Agency 
Recovery Act funds. One official contended            sponsored a National Research Council study 
that the OMB guidance related to measuring            due to the Environmental Protection Agency’s 
outcomes for this type of activity in 2 years         “difficulties in answering [OMB's] questions 
was “un-executable” and that delivering               about efficiency and OMB's insistence that the 
Recovery Act projects on time and under cost          agency find ways to measure the efficiency of 
                                                      its research based on outcomes, rather than 
should be the priority in the short term.
                                                                     outputs . . .” [emphasis added]. 
NIST officials explained the difficulty in                           NRC found that measuring research efficiency 
developing outcome-oriented metrics for                              “based on outcomes … is neither achievable 
research organizations, and cited a 2008                             nor valid, because such outcomes occur far in 
National Research Council (NRC) report that                          the future and are highly dependent upon 
found that measuring research efficiency based                       actions taken by many other people who may 
on “ultimate outcomes” is neither achievable                         or may not use the research findings.” The 
nor valid. The report, however, endorsed                             report does, however, recommend evaluating 
evaluating efficiency based on “intermediate                         efficiency based on "intermediate 
outcomes” (see box).                                                 outcomes"— assessing, for example, whether 
                                                                     a program has improved the body of 
NIST worked to improve its GPRA                                      knowledge for decision‐making, or 
performance measures related to several                              disseminated newly developed tools and 
Recovery Act programs for NIST’s 2011                                models.   
Congressional Budget Submission, which is a
positive step.12 Considerable additional work       Source: 
remains, however, for NIST (and NOAA) to            www8.nationalacademies.org/onpinews/newsi
                                                    tem.aspx?RecordID=12150  
develop outcome-oriented measures for
Recovery Act investments so that they are
more useful to all stakeholders, not only to
internal ones such as project managers and senior accountability officials.
We agree that program efficiency is an important outcome measure, but note the bureaus must
equally consider and measure program effectiveness.13 Other than measuring jobs, NIST and
NOAA do not evaluate the public benefits of these funds. For example, if NOAA contracts to
                                                            
12
   NIST updated its performance metrics related to the following programs: Measurement Science and Engineering
   Grants, Post-doctoral Research Fellowships, and Measurement Science and Engineering Fellowship Program. For
   example, NIST fellowship programs measure outputs of “knowledge transfer” such as the number of reports or
   the number of times a report is referenced by another researcher. Compared with measuring obligation percentage
   rates, measuring such outputs is relevant, and is important progress toward measuring outcomes.
13
   NRC conducts a yearly assessment focusing on quality, relevance, and technical merit of the NIST Laboratories
   Program. As a result of its efficiency evaluation, this year NRC will conduct an assessment of four NIST
   laboratories, last assessed in 2008. NRC assessment reports are available at www.nist.gov/director/nrc.


                                                               9
 
U.S. Department of Commerce                                                  Final Report ARR-19881 

Office of Inspector General                                                            May 21, 2010 

 
build a research facility or to construct a research vessel or if NIST provides for research
fellowships or purchases highly technical scientific equipment with Recovery Act funds, the
scientific improvements or public benefits of these tax dollar investments should be identified. If
NOAA and NIST do not do so, the bureaus cannot accurately measure the effectiveness of
Recovery Act programs.


Recommendation
NOAA and NIST should improve their performance metrics for the more significant Recovery
Act programs, focusing on intermediate outcomes that assess the programs’ benefits. For
example, performance metrics should track whether an investment has improved the body of
knowledge in a particular field, disseminated newly developed tools and models, supported a
research or technological innovation, or made other advancements in science and technology for
the public’s benefit.


Summary of Bureaus’ Comments
NOAA’s April 22 response to our draft report says that NOAA agrees with the report and has
already begun to modify its Recovery Act performance metrics to address the report’s
recommendation. NIST’s May 14 response reemphasized the challenges we discussed in the
report regarding measuring core science programs. However, NIST agreed that its performance
metrics for the STRS equipment program should be strengthened, and stated that it would
develop an appropriate set of intermediate measures.




                                                10
 
